Washington, D.C. 20530

October 14, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

William Dale Wooden v. United States of America,
S.Ct. No. 20-5279

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 24, 2020. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on October 22, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 23, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5279
WOODEN, WILLIAM DALE
USA

WILLIAM DALE WOODEN
48306-074
PO BOX 9000
FORREST CITY, AR 72336

